<html>
<title> - MARKUP OF: H.J. RES 37, DIRECTING THE REMOVAL OF UNITED STATES ARMED FORCES FROM HOSTILITIES IN THE REPUBLIC OF YEMEN THAT HAVE NOT BEEN AUTHORIZED BY CONGRESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 MARKUP OF: H.J. RES 37, DIRECTING THE REMOVAL OF UNITED STATES ARMED 
  FORCES FROM HOSTILITIES IN THE REPUBLIC OF YEMEN THAT HAVE NOT BEEN 
                         AUTHORIZED BY CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 6, 2019

                               __________

                            Serial No. 116-3

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                       
                       
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-361 PDF                WASHINGTON : 2019                             
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota              JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                           
                                     
                 
                                     

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                       STATEMENTS FOR THE RECORD

Representative David Cicilline...................................    40
Representative Ken Buck..........................................    42

                                APPENDIX

Hearing Notice...................................................    37
Hearing Minutes..................................................    38
Hearing Attendance...............................................    39

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Report to Congress...............................................    12
Statement of Administration Policy...............................    19
Department of Defense letter.....................................    20
New York Times article submitted by Representative Cicilline.....    43

                              RECORD VOTE

Record Vote Talley...............................................    47

                             MARKUP SUMMARY

Markup Summary...................................................    48


 MARKUP OF: H.J. RES. 37, DIRECTING THE REMOVAL OF UNITED STATES ARMED 
  FORCES FROM HOSTILITIES IN THE REPUBLIC OF YEMEN THAT HAVE NOT BEEN
                         AUTHORIZED BY CONGRESS

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2019

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC
    The committee met, pursuant to notice, at 1:34 p.m., in 
Room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. A quorum which is carried over from before 
is present, and we meet today to consider a single item. 
Pursuant to notice for purposes of markup, I call up House 
Joint Resolution 37.
    [H.J. Res. 37 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    Without objection, the resolution is considered read the 
first and second time and open for amendment at any point and 
committee members may have five calendar days to submit 
statements for the record.
    According to House Rule 11 Clause 2, the chair announces 
that he may postpone further proceedings today on the question 
of approving any measure or matter or adopting an amendment on 
which a recorded vote is ordered.
    Without objection, the chair is authorized to declare a 
recess at any time. Now I recognize myself for opening remarks. 
We are going to have opening remarks, Mr. McCaul's opening 
remarks. Then we are going to go to vote and come back 
immediately after votes to mark this up and to have members say 
anything they might want to say.
    So the committee has just heard testimony about the crisis 
in Yemen, about the death, disease, and displacement of 
millions that this destructive conflict has caused, and in my 
view, it is incumbent on this committee and this body to do 
everything we can to put a stop to it. We need to push all 
parties toward a political solution.
    And let me explain why I think this measure introduced by 
Mr. Khanna of California will help us do that.
    Now, in last year's Defense Authorization, Congress 
required the administration to certify that the Saudis and 
Emiratis were taking real steps to reduce the risk of harm to 
civilians and civilian infrastructure resulting from the 
military operations in Yemen.
    In the period of time before the certification was due, 
attacks against civilians rose sharply. According to the 
International Red Cross, August was the most violent month in 
2018 in Yemen with nearly 500 people killed in just 9 days.
    Since 2015, the coalition has undertaken 18,000 air 
strikes. That is one every 99 minutes, if you do the math. 
Fully one-third of those have hit nonmilitary targets--one in 
three.
    This is not just a statistic. One of those one in three was 
a school bus in northern Yemen with 40 children on it. That is 
not acceptable.
    So I was stunned, frankly, that in September the 
administration certified that the Saudis and Emiratis were 
indeed taking these steps, these so-called demonstrable actions 
to reduce civilian deaths.
    The administration simply could have waived the 
requirement. The law allowed that. But they did not. They 
essentially told us not to believe our eyes.
    Let me be clear. We have real strategic interests in that 
part of the world. Iran continues to destabilize the region and 
their support for the Houthis is only part of their strategy to 
bleed their regional adversaries.
    But I do not support providing assistance that we know is 
being used to kill civilians. And so, if the administration 
will not demand any sort of accountability from the Saudis and 
Emirates, the work then falls to the Congress.
    The Pentagon cutoff refueling as a matter of policy. But 
that could be reversed at any time. This resolution would 
cutoff refueling as a matter of law. It also sends a clear 
message to the administration, to our partners in the Gulf, and 
to our adversaries that Congress will not sit back and shirk 
our responsibilities when it comes to foreign policy. It is 
time to have the debates about how, when, and where the U.S. 
military is engaged around the world. This resolution is 
sparking that debate.
    So I will support moving this measure to the floor and at 
this time I will yield to the ranking member for any comments 
he might have.
    Mr. McCaul. Thank you, Mr. Chairman.
    I have a tremendous respect for the chair, but I must say 
this first markup is a a departure from the strongly bipartisan 
cooperation that we have enjoyed on this committee.
    I believe that this committee does have a solemn 
responsibility to appropriately exercise congressional war 
powers under Article 1 of the Constitution. But the mechanism 
to force withdrawal of U.S. forces under the War Powers Act 
applies only when we are engaged in live fire hostilities.
    This is not the case here. This is not what our military is 
doing currently in Yemen. This resolution would set a very 
dangerous precedent. Are we now going to allow any member to 
use this privileged war powers tool to second guess all U.S. 
security cooperation agreements throughout the world?
    This interpretation could impact our assistance to Israel. 
It could impact our cooperation with African nations in the 
Sahel. We could recklessly undo critical security relationships 
we have spent decades building.
    This is not what the War Powers Resolution has ever meant 
and it should not be used this way now. A vote in favor is a 
victory for bad policy.
    As we heard at this morning's hearing, the situation in 
Yemen poses critical, strategic, and humanitarian issues that 
deserve careful attention. If we want to discuss conditioning 
assistance to Saudi Arabia in this conflict, that is an area we 
can explore and debate.
    But this resolution is trying to hammer a square peg into a 
round hole. It misuses an extraordinary an extraordinary War 
Powers tool to try to get at the issue of security assistance 
to a third country.
    Even our aerial refueling of Saudi jets, which does not 
constitute hostilities as traditionally understood, ended last 
November. And I spoke with Defense Department representatives 
yesterday who reaffirmed that U.S. forces are not engaged in 
hostilities against Houthi forces in Yemen.
    They confirmed the continuing accuracy of the detailed 
letter sent to Congress last year by the department's acting 
general counsel.
    No one is saying that U.S. security assistance to Saudi 
Arabia or anyone else is beyond congressional scrutiny. We have 
many tools to use including this committee's arms sales 
notifications, targeted legislation, and the annual 
appropriations process, among others.
    But this resolution stretches the definition of hostilities 
to cover non-U.S. military operations by other countries. It 
reinterprets U.S. support to those countries as engagement in 
hostility.
    This has implications far beyond Saudi Arabia. Under this 
model, if any Member of Congress does not like something that 
any of our security partners does overseas, that member can 
force quick consideration of a resolution directing the removal 
of U.S. forces from hostilities, quote, ``in or affecting,'' 
unquote, that situation. It no longer matters that U.S. forces 
are not actually conducting those hostilities.
    The bill is vague and irresponsible. It will create doubts 
for our partners and allies around the world. It will trouble 
the many Americans who believe the burden sharing with capable 
allies is vital for U.S. national security.
    And for that reason, I oppose this measure and, Mr. 
Chairman, I ask unanimous consent to place into the record 
three documents.
    One, the January 2019 Department of Defense report to 
Congress concerning our similar acquisition and cross-servicing 
activities with over 117 nations around the world including our 
NATO allies, CT partners in the Sahel, Israel, and others.
    Two, the November 28th, 2018 statement of the 
administration policy opposing S.J. Res. 54 because, quote, 
``The United States forces are not engaged in hostilities 
between the Saudi-led coalition and Houthi forces in Yemen,'' 
unquote.
    And third, the February 27th, 2018 letter from the 
Department of Defense Office of General Council explaining the 
legal and security concerns posed by the approach used by 
today's resolution.
    I ask unanimous consent to place those in the record.
    Chairman Engel. Without objection, so moved.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. McCaul. And I thank the chairman for that and, again, I 
oppose this measure and I yield back my time.
    Chairman Engel. The ranking member yields back.
    Does any other member seek recognition on the resolution? I 
am told Mr. Connolly does.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    I appreciate the juridical distinction made by the ranking 
member that the United States is not technically involved on 
the ground in hostilities.
    But the United States most certainly has been involved in 
equipping, re-equipping, training, and other support for the 
Saudi activity in Yemen that has led to one of the greatest 
humanitarian crises on the face of the planet.
    And that is what we are trying to address today. We can 
hide behind juridical language that it is not technically a 
combat involvement of the United States. But it begs the 
question.
    Since 2015, the United States has provided support to the 
Saudi-led coalition in its war against Houthis rebels in Yemen. 
In addition to claiming an estimated 60,000 Yemeni lives, this 
war is fueling the world's largest humanitarian crisis.
    Humanitarian agencies now estimate that 85,000 children--
children--have died from malnutrition. More than half the 
population currently requires emergency food assistance and one 
in every ten Yemeni children has been forcibly displaced from 
his or her home due to this conflict.
    In September 2018, Secretary Pompeo certified to this 
Congress that the Saudi and Emirate government were mitigating 
harm to civilians and civilian infrastructure in Yemen.
    Meanwhile, the Saudi-led coalition has conducted attacks, 
killing dozens of civilians at a time often with U.S.-provided 
munitions, giving--belying the certification made in September 
2018.
    Article 1 Section 8 of the United States Constitution 
States unequivocally Congress shall have the power to declare 
war and to raise and support armies and other armed forces.
    I would argue, just as the executive branch says there are 
implied in the role of commander in chief, certainly there are 
implied powers about our ability to stop military interventions 
as we deem fit. Article 1 says so, as far as I am concerned.
    Pursuant to the War Powers Resolution, Public Law 93148, 
the president must remove U.S. armed forces engaged in 
hostilities outside U.S. territory without a specific statutory 
authorization if Congress so directs, and I would argue that 
that's a broad, broad authority for Congress.
    It does not necessarily mean U.S. combat troops on the 
ground. Support for ongoing hostilities by a third power--an 
ally--certainly qualify as far as I am concerned.
    Chairman Engel. Will the gentleman yield? We are concerned 
that there's time running out. There is 37 seconds left. So----
    Mr. Connolly. I support the resolution in front of us. I 
believe Congress needs to reclaim its congressional power and I 
will vote for the resolution pending before this committee.
    I thank the chair.
    Chairman Engel. I thank the gentleman.
    The committee will now recess until after votes on the 
floor. The committee stands in recess.
    [Recess.]
    Chairman Engel. The committee will come back to order.
    For those who were not here, before we broke I gave my 
opening statement and the ranking member gave his opening 
statement and then Mr. Connolly of Virginia gave a statement.
    So we can now call on any other members seeking 
recognition. First we will start from the Republican side. 
Anybody seeking recognition?
    Mr. Wilson. Mr. Chairman.
    Chairman Engel. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Mr. Chairman, I appreciate that the Foreign Affairs 
Committee has always had a strongly bipartisan cooperation to 
work on issues that are so important to the American people.
    I believe the committee has the solemn responsibility to 
appropriately exercise the congressional War Powers Act under 
Article 1 of the Constitution.
    But the mechanism to force withdrawal of U.S. forces under 
the War Powers Act applies only when we are engaged in live-
fire hostilities. This is not what our military is currently 
doing in its operations and support of operations in Yemen.
    This resolution would set a very dangerous precedent as we 
are now going to allow any member to use this privileged war 
powers tool to second guess all U.S. security cooperation 
agreements throughout the world.
    This interpretation could impact our assistance to Israel. 
It would impact our cooperation with African countries in the 
Sahel. It would recklessly undo critical security relationships 
we have spent decades building.
    This is not what the War Powers Resolution was ever meant 
and it should not be used in this way. A vote in favor is a 
victory for bad politics.
    As we have heard at this morning's hearing, the situation 
in Yemen poses critical strategic and humanitarian issues that 
deserve careful attention. If we want to discuss conditioning 
assistance to Saudi Arabia in this conflict, that is the area 
that we need to explore and debate.
    But this resolution is trying to hammer a square peg into a 
round hole. It misuses the extraordinary War Powers tool to try 
to get to the issue of security assistance to a third country.
    This--even our refueling of Saudi jets, which does not 
constitute hostilities as traditionally understood, ended last 
November. I spoke with the Department of Defense 
representatives yesterday who reaffirmed that U.S. forces are 
not engaged in hostilities against the Houthis forces in Yemen.
    They confirmed the continuing accuracy of the detailed 
letter sent to Congress last year by the department's acting 
general counsel.
    No one is saying that U.S. security assistance to Saudi 
Arabia or anyone else is beyond congressional scrutiny. We have 
many tools to use including the committee's arms sales 
notifications, targeted legislation, and the annual 
appropriations process, among others.
    But this resolution stretches the definition of hostilities 
to cover non-U.S. military operations by other countries. It 
reiterates and reinterprets U.S. support to these countries as 
engagement in hostilities.
    This has implications far beyond Saudi Arabia. Under this 
model, if any Member of Congress does not like something that 
any of our security partners conducts overseas, that member can 
force quick consideration of a resolution directing the removal 
of U.S. forces from hostilities, quote, ``in or on affecting,'' 
end of quote, that situation. It no longer matters that U.S. 
forces are not actually conducting the hostilities.
    The bill is vague and irresponsible. It will create doubts 
for our partners and allies around the world. It will trouble 
the many Americans who believe that burden sharing with capable 
allies is vital for U.S. security to protect American families.
    For these reasons, I strongly oppose this measure. I yield 
back my time.
    Chairman Engel. Are there any other members seeking 
recognition?
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, I am grateful to you for moving quickly to 
give this committee the opportunity to advance debate on U.S. 
involvement in the Yemen conflict. It is a debate that is long 
overdue.
    As we just heard earlier today, U.S. presence in the 
Arabian Peninsula and our relationships with regional States 
are vital to stability in the Middle East. These ties are 
enduring and date to the end of the Second World War.
    We should be clear from the outset that we value our 
alliances and we do share common interests. But we should be 
honest in reassessing where those interests diverge and in 
identifying actions that set back our mutual objectives.
    First and foremost, we have to view our relationship with 
regional States through the prism of our own interests. Where 
do our priorities align? What types of action undermine our own 
goals?
    The Saudis and Emirates are preoccupied with their campaign 
in Yemen, which they see as a direct threat to their national 
security. The U.S. is right to support these countries' right 
to self-defense and shares the concern that Iran is assisting 
the Houthis to further its own regional ambitions.
    But I also remain deeply troubled by the protracted 
military campaign in Yemen. The number of civilian casualties 
is alarming, to say the least. The lack of humanitarian access 
that has fostered famine and other extreme conditions and has 
put tens of millions of people at risk of starvation and 
disease is creating the worst crisis in decades.
    And I fear that the United States, through our coalition 
support, may be furthering the suffering and helping to 
perpetuate a conflict that has no military solution.
    The coalition war against the Houthis also redirects 
attention away from al-Qaida in the Arabian Peninsula, the most 
dangerous branch of al-Qaida, and one that has sought to attack 
the United States directly.
    In fact, public reporting has indicated these very groups 
the U.S. has long targeted in Yemen have at times been 
empowered by our own allies. Numerous reports of the use of 
child soldiers on both sides, illegal detention centers, shadow 
mercenaries, and continued reckless targeting should at least 
give us pause to reexamine exactly what role we should play in 
this conflict.
    That is why I am an original co-sponsor of H.J. Res. 37. 
That is why I will vote in support of it today. For too long 
this Congress has abdicated its role in foreign policy.
    Last Congress procedural moves were made to prevent us from 
even having this debate. The Trump administration, our Saudi 
and Emirate partners, the Houthis, and the Iranian backers must 
know that the status quo is unacceptable and must take greater 
steps to reach a diplomatic settlement to end the war.
    The administration has only been willing to stand up for 
U.S. principles when there is sustained pressure by Congress, 
as we saw with the suspension of refueling. It is time for 
accountability.
    The world must know that the United States does not accept 
and cannot be complicit in the deaths of innocent civilians in 
Yemen. Being an ally does not mean being given free rein and we 
must ensure that we are supporting our partners and making 
decisions that are in our best interest.
    I look forward to continuing this debate with my colleagues 
on the House floor and I look forward to ensuring that our 
policies in the Middle East are also protecting U.S. security 
interests.
    And I appreciate, Mr. Chairman, the opportunity to speak on 
this and yield back the balance of my time.
    Chairman Engel. Thank you, Mr. Deutch.
    Mr. Kinzinger.
    Mr. Kinzinger. Mr. Chairman, I can pass on my opening 
statement if there is nobody else. Otherwise, I will speak.
    Chairman Engel. I think--Mr. Curtis, I think, wanted to 
speak.
    Mr. Kinzinger. Yes, go ahead.
    Chairman Engel. Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Chairman, Ranking Member McCaul, 
for giving me a brief moment to speak regarding House Joint 
Resolution 37 directing the removal of U.S. armed forces from 
hostilities in Yemen.
    To be clear, I support the intent of the resolution. I have 
spoken often and including on the House floor regarding my 
concerns with U.S. involvement in Yemen's civil war.
    This is one of the world's deadliest wars that has killed 
tens of thousands of civilians. It is horrific--a horrific 
humanitarian crisis. An estimated 85,000 children have been 
killed or died of malnutrition and disease.
    The time has come for the U.S. to reconsider our support of 
this disastrous war and to consider the moral imperatives that 
form the foundation of our values and strategic interests.
    It is my fear that our continued support of the Saudi-led 
coalition's effort in Yemen will only increase resentment of 
United States in the region and could diminish America's 
reputation as champion of human rights and civil liberties.
    Aside from the gross inhumanity of this war, I have growing 
concerns about the behavior of Saudi Arabia as it affects our 
larger American strategic interest in the region and our 
interest in preserving global humanitarian norms.
    With all of that said, I will be voting no on the 
resolution before the committee today. My concerns are with the 
way the resolution is written and I believe it is the wrong 
vehicle to achieve the objective.
    I believe that the resolution distorts the War Powers tool 
to address the situation in Yemen. It is my concern that this 
resolution could set a dangerous precedent and would have the 
unintended consequences of complicating U.S. security 
cooperation with partners around the world.
    And for those reasons, I oppose the resolution. With that, 
Mr. Chairman, I yield my time.
    Chairman Engel. Thank you. Thank you.
    Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    Yemen is not and should not be a partisan issue. As all of 
you know, U.S. assistance to the Saudi-led coalition started 
under the Obama Administration in September 2015.
    I wrote a letter to the Pentagon about this then little 
known war in Yemen because we were seeing reports that the 
Saudi-led coalition was striking innocent civilians.
    In the following months and years more and more Democrats 
as well as Republicans started to get involved, and it is not 
just the humanitarian catastrophe we are concerned about. It is 
war crimes.
    And regardless of what your view is of Saudi Arabia or our 
relationship, we cannot be assisting a coalition that is 
engaging in war crimes.
    We also know, based on years of looking at their activity, 
it is not as if the Saudi jets are trying to hit a moving 
Houthi target and they miss and they strike a bunch of 
civilians.
    What they are doing is precisely trying to strike the 
civilians. They have intentionally hit schools, wedding 
parties, funerals, most recently a bus with over 40 school 
kids.
    And that is why I support this resolution. I do note that 
some of my Republican colleagues do have concerns related to 
War Powers.
    That is why Representative Malinowski, Yoho, and I also 
introduced a simple clean bill that just tells us to get out of 
Yemen and the Armed Services Committee will have jurisdiction 
over that.
    Having said that, I support this resolution and I urge 
people to support it as well.
    Chairman Engel. Thank you.
    Does any other member seek recognition?
    If not, we can go to an immediate vote.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman. I did change my 
mind because there was more discussion than I thought. So thank 
you for this opportunity to address this again.
    Mr. Chairman, I respect the intention of everybody to try 
to get to the solution. I respect the fact that everybody has 
compassion for what is going on in Yemen, as we all should.
    I am going to make the point that I made earlier today, 
which I think is very important to make, before I make a few 
other points.
    The vast majority, or at least a significant number of 
people that are on this committee are freshmen. The freshmen on 
this committee have not had an opportunity to be briefed by the 
administration on what is going on in Yemen and what we are 
doing in Yemen.
    The reason many people that are supporting this are 
supporting this are supporting this and OK voting for this 
without being briefed in a SCIF about what is going on in 
Yemen. And I hate to say this because I love this committee, 
but it is political.
    It is because back home the Yemen war is all over Twitter 
and because there is pressure so we want to just pass this 
thing out of here. I mean, I love the hearing we did earlier. 
That is important.
    But for the very first action of this committee to be to 
pass a War Powers Resolution that has nothing to do with what 
the War Powers Resolution was intended to do, the fact that 
there is over a hundred agreements between the Department of 
Defense and other countries that this, if passed, would now 
open up for any Member of Congress who disagrees with any one 
of those cooperation agreements to do the same exact thing.
    Let us say we have a member of this committee that is--or 
of Congress that does not like our engagement with Israel. By 
the way, I notice that in this resolution it says none of this 
shall be construed to hurt our cooperation with Israel.
    Well, that is true. It also is not construed for our 
cooperation with Georgia or the puppy brigade or anybody 
because this is specifically about Yemen.
    The point about Israel is this opens up that opportunity 
now for any member to come forward and say they disagree with 
our military cooperation with Israel and do a privileged 
resolution and force a vote on the floor.
    In the country of Georgia, where a third of it is occupied 
by Russian forces, we have cooperation with that nation. Now 
anybody that is pro-Russian can come forward and say that we 
need to debate ending cooperation with the Georgian military 
and everything else.
    I am not--look, if you vote for this I do not think you are 
a bad person. Trust me. I do not think you have America's 
interests not at your heart. But my request of this committee, 
if we are going to take up this resolution is let us all have 
really good discussions about it.
    Let us have information in the SCIF about what we are 
really doing over there. Let us have a detailed discussion 
about what happens if we pull out all cooperation of Saudi 
Arabia and what does that look like in terms of targeting in 
Yemen, and go through what we need and then as a committee we 
can have this vote.
    But, Mr. Chairman, respectively, and I have a great deal of 
respect for you, this is our very first committee action and we 
are getting ready to take an action that is going to have 
detrimental consequences without really thinking it through.
    So I have a great deal of respect here for all of my 
colleagues. But I would beg you--I would beg you to think 
through what your vote would have. I get the political 
implications of this. I get that Saudi Arabia, for instance, is 
a hot topic right now in the political sphere.
    But what we do on this committee is not about politics. 
There is always some of that. We get it. What I have loved 
about being on the Foreign Affairs Committee and the reason I 
have fought hard to get my waivers to be on this committee is 
because this is a committee that puts partisan politics for the 
most part in front--behind what is good for this Nation.
    And if you all think this is good for this Nation, that is 
fine. But I think you need to make that decision after having 
all the information in front of you before just saying in the 
very first meeting of this committee let us have a vote that 
could have a massive impact, open up over a hundred defense 
agreements for any other member of the House of Representatives 
that takes a problem with that to debate and bring a privileged 
resolution.
    So with all due respect, I would beg you to vote against 
this. I would beg the majority to pull this resolution. But if 
they do not pull it, I would beg you to vote against it.
    Let us get briefings, let us move on, and then have a 
really good debate and vote after that.
    Thank you, Mr. Chairman.
    Chairman Engel. Thank you.
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman.
    I very much appreciate the sentiment that was just 
expressed and the passion behind it. With respect, I am a 
freshman who has spent many, many hours in SCIFs looking at 
this situation, having helped to oversee some of our assistance 
to Saudi Arabia in this conflict.
    We have a number of freshman members here who have 
significant national security experience. So I think we should 
debate the substance of this rather than suggest that any of us 
on this side have not thoroughly studied the question.
    For me, I--look, many of us on both sides have concerns 
about our engagement with Saudi Arabia. I share some of my 
Republican colleagues' concerns about not overusing the War 
Powers Resolution.
    I think there may be other ways to address these concerns, 
and as Mr. Lieu mentioned, we hope to be able to work together 
with you on that.
    But the question here before us is a very simple one. Are 
we actually involved in active hostilities with the Saudis in 
Yemen?
    I can tell you most of my former colleagues in the State 
Department who are lawyers looking at this question believe 
that the answer to is was yes and I think it stands to reason.
    Imagine, if you will, if a foreign power were engaged in 
air strikes against Washington, DC. as we spoke and a second 
foreign power was refueling its aircraft over the Chesapeake 
Bay and then servicing those aircraft when they landed to stock 
up on bombs again so that they could resume their operations 
against us.
    Would we consider the second power to be engaged in active 
hostilities against us? I think all of us in this room would 
say yes. We are deeply, deeply embedded in the Saudi conflict 
in Yemen in a way that we are not in the various partnership 
relationships we have in Africa, in the Middle East, that my 
friend fears that this will implicate.
    I think the standard we are setting here for defining 
engagement in active hostilities is in fact very, very high, 
very, very appropriate and I will be voting for this resolution 
as a result.
    Thank you.
    Mr. Connolly. Would my friend yield for a question?
    Mr. Malinowski.
    Mr. Malinowski. Yes, absolutely.
    Mr. Connolly. Would my friend agree, in addition to the 
points he made, that we are arguing over what constitutes 
combat and hostilities and that the support we have been giving 
in the Yemen conflict with the Saudis would clearly fall within 
the penumbra of hostilities and combat support involving U.S. 
military if not on the ground?
    Mr. Malinowski. I would say yes and in a way that is 
distinct from most of our partner relationships around the 
world. The provision of weapons to Saudi Arabia, in my mind, 
would not rise to that level.
    Mr. Connolly. And would my friend----
    Mr. Malinowski. But refueling operations, targeting where 
we are actually there with them selecting the target and 
enabling the aircraft to reach the target, if any--if this was 
being done to us there is no question in my mind that we would 
agree that that would be hostilities against the United States.
    Mr. Kinzinger. Will the gentleman----
    Mr. Connolly. So--I am not finished yet. If my friend would 
further yield.
    Mr. Malinowski. Of course, yes.
    Mr. Connolly. So some--I understand that there are 
differences in approach and that some have a juridical 
approach, which is that strictly speaking, unless there are 
boots on the ground, we are not in combat and this does not 
apply and we are overreaching.
    I beg to differ as, obviously, does my friend from New 
Jersey. But let me ask one final question.
    Would my friend also agree that just as there are implied 
powers for the role of the commander in chief that over the 
years have really been expanded that there are also implied 
powers in Article 1 Section A to the Constitution exclusively 
granting to the legislative branch the power of war and peace 
and the assembling of armed forces? That is explicit language 
in the Constitution of the United States.
    And that today we are in fact--you could disagree with the 
action but certainly you cannot argue constitutionally that we 
are not within our right to circumscribe the involvement of 
U.S. military when we have grave doubts about half the people 
we represent.
    Mr. Malinowski. I certainly agree with my friend and it is 
a responsibility that Congress over the years has, arguably, 
abdicated and I think one of the points of this resolution and 
our broader efforts on Saudi Arabia, however we approach them, 
is to assert that Congress has that role and responsibility.
    Obviously, we need to exercise it responsibly. But I think 
we are doing so here.
    Chairman Engel. Time is up.
    Anybody on the Republican side wish to be heard?
    If not, we have one more--Mr. Zeldin?
    Mr. Zeldin. I yield to Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Zeldin. Thank you, Mr. 
Chairman.
    Just I am not going to take all 5 minutes. I do want to 
make a point, though. If the U.S. Government was overthrown by 
a terrorist organization and somebody was bombing that 
terrorist organization and there was a country refueling and 
giving them targeting against the terrorist organization, I 
certainly would not consider them an enemy.
    I think that is an important point to make. And again, I 
think just--because I do not want to take all 5 minutes--one of 
the biggest things here is what precedent are we setting in any 
one of our defense cooperation agreements by this?
    I respect, sir, the gentleman from New Jersey, that you do 
know what is going on. I would argue that there are a lot of 
people that just do not. And that is not a cut to them. There 
is probably situations around the world I do not know anything 
about because I have not been briefed to the level I should 
have been.
    And I got to tell you--and this is dead honest, and my 
friends on the other side of the aisle know this about me--if 
my party in 2015 was bringing this up against President Obama, 
who began this cooperation, I would be saying the exact words I 
am saying today and I would be opposing my own party in this 
resolution because I think it is so bad.
    With that, I will just yield back, or I will yield back to 
the gentleman.
    Mr. Zeldin. I yield back to the chair.
    Chairman Engel. Thank you.
    Ms. Spanberger.
    Ms. Spanberger. Thank you, Mr. Chair.
    To comment on the positions put forth by my colleague from 
Illinois, I would like to posit that we in fact are making 
informed decisions. That is the focus of what we are doing 
here, and I can think of no better first action than one that 
is focused on Article 1 of the Constitution that requires that 
Members of Congress make informed decisions about hostile 
engagement that in fact we undergo.
    And my colleague's reverse hypothetical of my colleague 
from New Jersey's position was actually not one that was 
something that we can perceive as a comparison because in fact 
the minute we start changing under which circumstances we are 
willing to abdicate our responsibility related to Article 1 in 
the case of a government overthrow, does Congress just step 
back and let the administration or the executive branch do 
whatever they want in this circumstance or that circumstance.
    We are taking away and we are abdicating our responsibility 
as Members of Congress and the minute we engage in these 
hypotheticals where we are talking about different 
circumstances and allowing for and justifying behaviors in 
different circumstances, I think that is where we get into 
challenging territory.
    And so I will be supporting this resolution today because I 
think it is absolutely because we need to make informed 
decisions that Congress should be engaged on where it is that 
we are in fact engaged in hostile activity or military 
activity.
    I yield back. Thank you.
    Chairman Engel. All right. Thank you.
    Hearing no further requests for recognition, the question 
is to report House Joint Resolution 37 to the House with the 
recommendation that the bill does pass.
    All those in favor, say aye.
    [Chorus of ayes.]
    All opposed, no.
    [Chorus of noes.]
    In the opinion of the chair, the ayes have it.
    Mr. Kinzinger. Mr. Chairman, I ask for a recorded vote.
    Chairman Engel. A recorded vote has been requested. The 
clerk will call the role.
    Ms. Stiles. Mr. Sherman. Mr. Sherman.
    [No response.]
    Ms. Stiles. Mr. Meeks. Mr. Meeks.
    [No response.]
    Ms. Stiles. Mr. Sires.
    Mr. Sires. Aye.
    Ms. Stiles. Mr. Sires votes aye.
    Mr. Connolly.
    Mr. Connolly. Aye.
    Ms. Stiles. Mr. Connolly votes aye.
    Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Stiles. Mr. Deutch votes aye.
    Ms. Bass.
    Ms. Bass. Aye.
    Ms. Stiles. Ms. Bass votes aye.
    Mr. Keating.
    Mr. Keating. Aye.
    Ms. Stiles. Mr. Keating votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Stiles. Mr. Cicilline votes aye.
    Mr. Bera.
    Mr. Bera. Aye.
    Ms. Stiles. Mr. Bera votes aye.
    Mr. Castro.
    Mr. Castro. Aye.
    Ms. Stiles. Mr. Castro votes aye.
    Ms. Titus.
    Ms. Titus. Aye.
    Ms. Stiles. Ms. Titus votes aye.
    Mr. Espaillat. Mr. Espaillat.
    [No response.]
    Mr. Lieu.
    Mr. Lieu. Aye.
    Ms. Stiles. Mr. Lieu votes aye.
    Ms. Wild.
    Ms. Wild. Aye.
    Ms. Stiles. Ms. Wild votes aye.
    Mr. Phillips.
    Ms. Phillips. Aye.
    Ms. Stiles. Mr. Phillips votes aye.
    Ms. Omar.
    Ms. Omar. Aye.
    Ms. Stiles. Ms. Omar votes aye.
    Mr. Allred.
    Mr. Allred. Aye.
    Ms. Stiles. Mr. Allred votes aye.
    Mr. Levin.
    Mr. Levin. Aye.
    Ms. Stiles. Mr. Levin votes aye.
    Ms. Spanberger.
    Ms. Spanberger. Aye.
    Ms. Stiles. Ms. Spanberger votes aye.
    Ms. Houlahan.
    Ms. Houlahan. Aye.
    Ms. Stiles. Ms. Houlahan votes aye.
    Mr. Malinowski.
    Mr. Malinowski. Aye.
    Ms. Stiles. Mr. Malinowski votes aye.
    Mr. Trone.
    Mr. Trone. Aye.
    Ms. Stiles. Mr. Trone votes aye.
    Mr. Costa.
    Mr. Costa. Aye.
    Ms. Stiles. Mr. Costa votes aye.
    Mr. Vargas.
    Mr. Vargas. Aye.
    Ms. Stiles. Mr. Vargas votes aye.
    Mr. Gonzalez.
    Mr. Gonzalez. Aye.
    Ms. Stiles. Mr. Gonzalez votes aye.
    Mr. McCaul.
    Mr. McCaul. No.
    Ms. Stiles. Mr. McCaul votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Stiles. Mr. Smith votes no.
    Mr. Chabot. Mr. Chabot.
    [No response.]
    Mr. Wilson.
    Mr. Wilson. No.
    Ms. Stiles. Mr. Wilson votes no.
    Mr. Perry.
    Mr. Perry. No.
    Ms. Stiles. Mr. Perry votes no.
    Mr. Yoho.
    Mr. Yoho. No.
    Ms. Stiles. Mr. Yoho votes no.
    Mr. Kinzinger.
    Mr. Kinzinger. No.
    Ms. Stiles. Mr. Kinzinger votes no.
    Mr. Zeldin.
    Mr. Zeldin. No.
    Ms. Stiles. Mr. Zeldin votes no.
    Mr. Sensenbrenner. Mr. Sensenbrenner.
    [No response.]
    Mrs. Wagner.
    Mrs. Wagner. No.
    Ms. Stiles. Mrs. Wagner votes no.
    Mr. Mast.
    Mr. Mast. No.
    Ms. Stiles. Mr. Mast votes no.
    Mr. Rooney. Mr. Rooney.
    [No response.]
    Mr. Fitzpatrick.
    Mr. Fitzpatrick. No.
    Ms. Stiles. Mr. Fitzpatrick votes no.
    Mr. Curtis.
    Mr. Curtis. No.
    Ms. Stiles. Mr. Curtis votes no.
    Mr. Buck. Mr. Buck.
    [No response.]
    Mr. Wright.
    Mr. Wright. No.
    Ms. Stiles. Mr. Wright votes no.
    Mr. Reschenthaler.
    Mr. Reschenthaler. No.
    Ms. Stiles. Mr. Reschenthaler votes no.
    Mr. Burchett.
    Mr. Burchett. No.
    Ms. Stiles. Mr. Burchett votes no.
    Mr. Pence.
    Mr. Pence. No.
    Ms. Stiles. Mr. Pence votes no.
    Mr. Watkins.
    Mr. Watkins. No.
    Ms. Stiles. Mr. Watkins votes no.
    Mr. Guest.
    Mr. Guest. No.
    Ms. Stiles. Mr. Guest votes no.
    Chairman Engel. May I ask the clerk how----
    Ms. Stiles. Chairman Engel.
    Chairman Engel. Votes aye.
    Ms. Stiles. Chairman Engel votes aye.
    Chairman Engel. Mr. Espaillat.
    Mr. Espaillat. Aye.
    Ms. Stiles. Mr. Espaillat votes aye.
    Chairman Engel. Have all members been recorded?
    And the clerk will report.
    One more?
    Chairman Engel. Is Mr. Sherman recorded?
    Mr. Sherman. Aye.
    Ms. Stiles. Mr. Sherman votes aye.
    [Laughter.]
    Ms. Stiles. Mr. Chairman, on that vote, there were 25 ayes 
and 17 noes.
    Chairman Engel. Twenty-five ayes and 17 noes. The ayes have 
it.
    The measure is ordered favorably reported and the motion to 
reconsider is laid upon the table.
    Without objection, the staff is authorized to make 
necessary technical and conforming changes, and this concludes 
our business today.
    I want to thank Mr. McCaul and all our members on both 
sides of the aisle and the committee stands adjourned.
    [Whereupon, at 2:50 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                

                  STATEMENTS SUBMITTED FOR THE RECORD
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  
                  

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             

                              RECORD VOTE
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              


                             MARKUP SUMMARY
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             



                                 <all>
</pre></body></html>
